<html>
<title> - IMPACTS OF THE PROPOSED WATERS OF THE UNITED STATES RULE ON STATE AND LOCAL GOVERNMENTS AND STAKEHOLDERS</title>
<body><pre>[Senate Hearing 114-56]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 114-56
 
                    IMPACTS OF THE PROPOSED WATERS OF THE 
                      UNITED STATES RULE ON STATE AND LOCAL 
                      GOVERNMENTS AND STAKEHOLDERS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON FISHERIES, WATER, 
                              AND WILDLIFE

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      APRIL 8, 2015--FAIRBANKS, AK

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
95-818                          WASHINGTON : 2015                       
                              
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8aedfae5cae9fff9fee2efe6faa4e9e5e7a4">[email&#160;protected]</a>  
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
                              ----------                              

             Subcommittee on Fisheries, Water, and Wildlife

                     DAN SULLIVAN, Alaska, Chairman
JOHN BARRASSO, Wyoming               SHELDON WHITEHOUSE, Rhode Island
SHELLEY MOORE CAPITO, West Virginia  THOMAS R. CARPER, Delaware
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
JEFF SESSIONS, Alabama               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
JAMES M. INHOFE, Oklahoma (ex        BARBARA BOXER, California (ex 
    officio)                             officio)
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 8, 2015
                           OPENING STATEMENT

Sullivan, Hon. Dan, U.S. Senator from the State of Alaska........     1

                               WITNESSES

Bishop, Hon. Click, Alaska State Senator from Senate District C..     4
    Prepared statement...........................................     6
Brower, Charlotte E., Mayor, North Slope Borough.................     9
    Prepared statement...........................................    11
Taylor, Sara, Executive Director, Citizens' Advisory Commission 
  on Federal Areas...............................................    26
    Prepared statement...........................................    28
Mauger, Sue, Science Director, Cook Inletkeeper..................    31
    Prepared statement...........................................    33
Wrigley, Bryce, President, Alaska Farm Bureau....................    36
    Prepared statement...........................................    38
MacKinnon, John, Executive Director, Associated General 
  Contractors of Alaska..........................................    40
    Prepared statement...........................................    42
Williams, Austin, Alaska Director of Law and Policy, Trout 
  Unlimited......................................................    46
    Prepared statement...........................................    48
Crockett, Deantha, Executive Director, Alaska Miners Association.    53
    Prepared statement...........................................    56
Carroll, Shannon, attorney and commercial fisherman..............    59
    Prepared statement...........................................    61

                         ADDITIONAL STATEMENTS

Letters to Senator Sullivan:
    From Flowline Alaska, Inc., dated April 13, 2015.............    76
    From Great Northwest, Inc., undated..........................    79
    From Travis/Peterson Environmental Consulting, Inc., dated 
      April 15, 2015.............................................    81


 IMPACTS OF THE PROPOSED WATERS OF THE UNITED STATES RULE ON STATE AND 
                   LOCAL GOVERNMENTS AND STAKEHOLDERS

                              ----------                              


                        WEDNESDAY, APRIL 8, 2015

                               U.S. Senate,
         Committee on Environment and Public Works,
             Subcommittee on Fisheries, Water, and Wildlife
                                                     Fairbanks, AK.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
             U.S. SENATOR FROM THE STATE OF ALASKA

    Senator Sullivan. The Subcommittee on Fisheries, Water, and 
Wildlife will now come to order, and I would please ask all the 
witnesses to take their seats up front at the witness stand, 
please. And we have two witnesses on the line from Barrow and 
Juneau.
    I want to thank everybody for being here. I'm Senator Dan 
Sullivan, Senator from Alaska. We are here to discuss the 
proposed Waters of the United States rule by the Environmental 
Protection Agency. I know that some of you have had to travel 
to be here. Most of you had to shuffle competing schedules, so 
I want to thank everybody. I appreciate all of you for 
participating today.
    This is an official hearing of the U.S. Senate Environment 
and Public Works Committee. I serve as the chair of the 
Subcommittee on Waters, Wildlife, and Fisheries. In Washington, 
DC, we have held numerous hearings with the EPA Administrator, 
Assistant Secretary of the Army, State government 
representatives, and stakeholders about this issue. This 
hearing is a continuation of these efforts, and it will also 
give voice to a cross-section of Alaskans on this proposed rule 
and its possible impacts.
    Beyond those testifying today, the subcommittee heard 
testimony from many Alaskans in Anchorage 2 days ago, including 
the Resource Development Council, Alaska Municipal League, 
Arctic Slope Regional Corporation, Alyeska Pipeline. They 
joined three-fifths of States in the United States that oppose 
the rule and more than 300 trade groups and associations from 
across the Country that oppose the rule.
    I want to state at the outset, certainly, as Alaska's 
Senator, the obvious, but sometimes I think it needs to be 
stated: We clearly, as Alaskans, believe in the importance of 
clean water. We've seen the Clean Water Act over the years do 
many important positive things. I think we certainly have some 
of the cleanest water, the most pristine environment of any 
place in the world, and Alaskans cherish that. I've also told 
the EPA administrator we probably care about that living here 
more than any EPA official in Washington, DC, does. So I think 
that's important.
    I also think that it's important today to emphasize that 
this hearing is also about respecting our citizens, as I think 
almost every witness will testify. Certainly, they all did in 
Anchorage. This is a unique rule that will impact Alaska more 
than any other State by far. And we have certainly unique 
aspects of our State that have not been taken into 
consideration with regard to this rule, and it's important for 
us in Washington, the Senators in Washington, to bring 
Washington, DC, to Alaska, to the State, so we can hear 
directly from you as opposed to having everybody have to fly 
thousands of miles to Washington to testify on this rule.
    Alaska is no stranger to overreaching Federal agencies; 
however, it should be stressed that the proposed Waters of the 
U.S. rule may be one of the most massive expansions of Federal 
jurisdiction we have seen to date. Unlike much of the Federal 
overreach that has impacted Alaska, the tentacles of the Clean 
Water Act extend far beyond Federal lands and this rule would 
impact the ability for State and private landowners to use 
their land.
    Already a huge percentage of Alaska falls under the Clean 
Water Act jurisdiction. Alaska has 43,000 miles of coastline, 
millions of lakes, more than 43 percent of our State's surface 
area is composed of wetlands, which accounts for 65 percent of 
all the wetlands in the United States. A whopping 63 percent of 
the Nation's jurisdictional waters under the Clean Water Act 
are in Alaska, meaning those who are building or doing business 
on or near those waters have to wrangle with the Federal 
Government to get permits or approval.
    Let me be clear, there is no doubt that many of our 
wonderful lakes and rivers, such as the Yukon and Chena and 
their tributaries are jurisdictional under the Clean Water Act. 
No one is suggesting otherwise. Instead, we are here to talk 
about the proposed rule and regulations of waters that I 
believe Congress never intended to be jurisdictional under the 
act. As I mentioned earlier, Alaska has some of the cleanest 
waterways in the world, leading to our vibrant world-class 
fisheries and award-winning drinking water. Concerns over this 
rulemaking are not at all aimed at jeopardizing those 
characteristics which we all hold dear and that are fundamental 
to the identity of Alaska.
    Instead, our efforts are about clarifying jurisdiction and, 
if it's a major expansion of Federal jurisdiction, pushing back 
on Federal agencies that are asserting such authority, such 
authority over even the possibility of roadside ditches, 
culverts, stormwater systems, isolated ponds, and activities on 
adjacent lands, bypassing Congress and ducking Supreme Court 
rulings. Regardless of this rule, discharge of pollutants into 
these features would remain subject to Clean Water Act 
regulations.
    If the rule is finalized in its current form, it would mean 
that many Alaskans could be subject to having to get a permit 
from the EPA in order to do things such as dig ditches in their 
backyards; it would mean that a farmer might have to get a 
permit to plow new land. It would be a huge burden possibly on 
our placer miners in the Interior. It would mean that harbors, 
roads, pesticide control, and certainly natural resource 
development could fall under a more rigorous Federal permitting 
process, effectively granting the EPA the power to dictate 
energy and infrastructure policy in most of Alaska. This is not 
hyperbole. Just ask the Idaho couple who wanted to build a 
house on just over a half-acre of their own private land that 
happened to be near a lake. The EPA determined that their 
property was a wetland and forced them to stop development, 
rehabilitate the property to its natural state, or face tens of 
thousands of dollars in fines a day. With this rulemaking, more 
landowners across the U.S. would be subject to the same 
treatment.
    Just a couple of weeks ago, the Senate passed by a strong 
bipartisan vote an amendment that I co-sponsored with Senator 
John Barrasso of Wyoming that would rein in the scope of this 
rulemaking. This amendment was an important bipartisan first 
step as we craft legislation to ensure that the Clean Water Act 
is focused on maintaining pristine water quality. We sent a 
strong bipartisan message that the Clean Water Act should not 
be transformed into a tool to expand the authority of the EPA 
without congressional authority and control entirely unrelated 
activities.
    So, again, I want to thank everybody for being here. We 
have a very distinguished panel of witnesses. As the chair, I 
want to emphasize that we have selected witnesses, both here 
and in Anchorage, who are opposed to this rule and who are in 
favor of this rule, and we want to be respectful of all 
viewpoints. We will have two panels today to discuss this, and 
we will begin here in a minute. I just want to mention one 
final thing. Yesterday, in a presentation that I gave, there 
were questions on whether other Alaskans, other Fairbanksans 
could weigh in on this proposed rule in addition to the invited 
witnesses that we have here today. And, as chair of the 
subcommittee, I am requesting to keep the record of this 
hearing open for the next 10 days for all additional written 
testimony from any Alaskan, whether they support or oppose this 
rule, so all of your voices can be heard.
    I'm going to provide for the record an address to send any 
additional written testimony from anybody here or other 
Alaskans who want to participate. The address would be to my 
office: Senator Dan Sullivan, Chair of the Subcommittee on 
Fisheries, Wildlife, and Waters of the Environment and Public 
Works Committee, and that is in the Dirksen Senate Building, 
room number SDB-40A, Washington, DC, 20515. And, again, we want 
to encourage all Alaskans to participate with regard to the 
importance of their voices being heard with regard to this 
rule.
    So we will begin with our first panel and that--again, 
we're very, very pleased with the distinguished witnesses that 
we have. The first panel is going to be remotely testifying, 
first, from Senator Click Bishop who is obviously the State 
senator from the Interior; and, Charlotte Brower, the mayor of 
the North Slope Borough. I believe that both Senator Bishop and 
Mayor Brower are on the line. We will begin with the testimony 
of Senator Bishop and we'll move to the testimony of Mayor 
Brower, and then I'm going to ask them a few questions, and 
then we will turn to our second panel of distinguished 
witnesses.
    Senator Bishop, if you're on the line, the floor is yours.

   STATEMENT OF HON. CLICK BISHOP, ALASKA STATE SENATOR FROM 
                       SENATE DISTRICT C

    Senator Bishop. Thank you, Chairman Sullivan, and welcome 
home.
    Senator Sullivan. Thank you.
    Senator Bishop. As previously stated, my name is Click 
Bishop, currently serving as Alaska State senator representing 
west Fairbanks and a broad sweep of rural Alaska, including 63 
small villages situated in the Yukon-Koyukuk, Tanana, and 
Copper River Valleys. As former labor commissioner, I am 
intimately familiar with the impacts of Government decisions on 
our economy and on our working families through delay or 
outright denial of resource development projects.
    My previous career was a heavy equipment operator working 
on the TransAlaska Pipeline and many other associated 
construction projects throughout Alaska. In my younger life, I 
spent over 18 years racing Yukon 800 style outboard riverboats 
on Alaska's Interior rivers, the Tanana and the Yukon. So it's 
safe to say that everything I've been involved in was, since I 
got out of high school and quite a bit of what I did before, 
has taken place on or near waters of the United States, 
especially under these new definitions.
    In speaking with you today, it's not my intention to 
regurgitate a long list of facts and counter-arguments showing 
how and where Federal agencies have overstepped their 
boundaries in this action. Those have been entered into the 
record hundreds of times after the proposed rule was published 
in the Federal Record over a year ago. Instead, I want to sound 
a warning that there will be a huge negative impact on the 
Nation and Alaska's economy if the EPA and the Corps adopt 
these definitional changes, which it appears they are 
proceeding to do. I fear the impacts of the EPA's new enhanced 
and onerous powers generated by these proposed changes, impacts 
on small family owned and operated businesses as well as large 
projects proposed in Alaska.
    It's interesting to note that whenever a Government agency 
like the EPA or the Corps of Engineers seeks to clarify the 
meaning or a definition of a term or a phrase, it very seldom 
narrows its definition, but rather broadens it to areas never 
envisioned by those who passed the Clean Water Act in 1972. 
Wouldn't it be more honest to look at the programs enabling 
legislation and keep any clarifications as true to the original 
intent of what Congress passed? As so often happens, we also 
see that the words agencies are proposing to use to clarify and 
better define their regulations only further muddy the waters. 
How will they determine what is a significant connection to 
downstream water quality? What is a significant nexus?
    I note, also, that agencies are headlong rushed to impose 
this rule, ignoring the public process, in the case of their 
Connectivity Report, getting the decision done before the so-
called science upon which this decision is supposed to be made, 
is available. While stakeholders from State agencies to local 
governments express their concerns about this cart-before-the-
horse process, the EPA and the Corps move forward regardless. 
The agencies have moved forward their proposed changes without 
consultation with State and local agencies that will be 
required to implement and enforce the changes. In addition, 
they have moved forward with no regard or meaningful analysis 
of the fiscal impact to State and local agencies.
    It's clear to me the EPA in lockstep with the Corps view it 
as their mission to control every human activity within the 
water column, from the moment the raindrop hits the earth until 
it diffuses into the ocean. We, in Alaska, we take great pride 
in our State's superlatives, which set us apart from our sister 
States. Little things like our millions of acres of wetlands, 
millions of lakes, 30,000 miles of shoreline. We know it's cold 
and dark here and there's midnight sun in the summer. I see no 
evidence that the agencies will accommodate our unique features 
such as permafrost, a pervasive feature found in 63 percent of 
the State, yet unacknowledged in the new proposed regulatory 
scheme. Permafrost is an inhibitor of water flow; it's a sink 
for the storage of water. It should be specifically excluded 
from these regulations.
    Again, we are not sure how the agencies will determine what 
is a significant nexus, but there is simply no nexus between 
cryogenically isolated permafrost and waters of the United 
States. Unique as we may be in Alaska in regard to this new 
definition of waters of the United States, we are truly in the 
same boat as all our sister States and territories. With this 
definition change, we will see projects shut down in Anchorage, 
Sheridan, Wyoming, Seattle, Washington, and Topeka, Kansas.
    With that being said, I'd just like to wrap up in summary. 
This whole wetlands adjacent regulation is the EPA's attempt to 
circumvent the Supreme Court. I don't know if the EPA knows 
this or not, but the Supreme Court is the highest law in the 
land. They get the last word and they have spoken. Implementing 
this adjacent regulation would overturn the Great Northwest 
decision and that has terrible implications for Alaskans all 
over the State.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Bishop follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Sullivan. Thank you, Senator Bishop, for that very 
powerful testimony. I look forward to digging a little deeper 
with some of the questions.
    Mayor Brower, if you're still on the line, the floor is 
yours.

  STATEMENT OF CHARLOTTE E. BROWER, MAYOR, NORTH SLOPE BOROUGH

    Mayor Brower. Chairman Sullivan, good morning [speaks in 
Inupiat language].
    Senator Sullivan. Good morning.
    Mayor Brower. My name is Charlotte Brower. I am mayor of 
the North Slope Borough. I am also an Inupiat, the wife of a 
whaling captain, and mother to 6 children and 26 grandchildren 
ranging from 21 years old to 2 weeks old.
    Thank you for the invitation to address the subcommittee 
today regarding the proposed rule put forward by the EPA and 
the Corps of Engineers, which they define the jurisdiction of 
those two agencies to regulate waters of the United States 
under the Clean Water Act.
    I understand the proposed rule was submitted yesterday to 
the White House Office of Information and Regulatory Affairs, 
which is typically one of the last steps taken before a 
proposed rule is finalized. It is our sincere hope that the 
agencies have taken into consideration the comments we 
submitted jointly with the Inupiat Community of the Arctic 
Slope and the Arctic Slope Regional Corporation to the agencies 
in the record, which expressed our serious concerns with the 
proposed rule and the disproportionate impacts that the 
proposed rule would have on our community.
    As you know, the North Slope Borough is the largest 
municipality in the United States in terms of land mass and 
serves as the regional government for eight villages within 
89,000 square miles of the Alaska Arctic. Over 70 percent of 
our nearly 8,000 full residents are Inupiat Eskimo who continue 
to rely heavily on the natural environment for subsistence and 
for food security. While the borough believes it is very 
important to protect our waters and wetlands, we also believe 
that the proposed rule will cause much more harm to the borough 
and its residents than the EPA and the Corps of Engineers 
understand.
    The scope of the proposed rule's impact on Alaska is 
immense and its impact on Alaskans, Alaska Natives, and the 
North Slope is disproportionate to the rest of the country. 
43.3 percent of Alaska's surface area is wetlands. In the Lower 
48, wetlands only occupy 5.2 percent of the surface area. The 
U.S. Fish and Wildlife Service calculates that 47 million acres 
in the Arctic foothills and the coastal plains are wetlands. 
Together, these areas correspond roughly with the borders of 
the North Slope Borough.
    It appears that all 47 million acres, more than 80 percent 
of the entire North Slope region, could be considered 
jurisdictional waters of the United States under the proposed 
rule. I am a mayor of a borough that is larger than the State 
of Utah. Most of the North Slope region is characterized by 
tundra and permafrost, yet the proposed rule has left no 
consideration for any of the unique aspects of Alaska's 
wetlands. Neither the word ``tundra'' nor the word 
``permafrost'' appears anywhere in the proposed rule. Unlike 
the many exceptions in the proposed rule that are created for 
farming and other preferences, the proposed rule creates no 
exception for any material portions of the wetlands in Alaska, 
yet Alaska's waters and wetlands are unusual in many ways that 
may make them unsuitable for this broad view assertion of 
jurisdiction by the agencies. For one thing, many of Alaska's 
wetlands are frozen for 9 months out of the year and lie on top 
of permafrost. Also, unlike wetlands in temperate zones, Arctic 
wetlands which lie above thousands of feet of frozen permafrost 
are not connected to apply for--subject to water flow.
    As one more example, because water on top of permafrost 
travels across frozen tundra surface in sheet flows, these 
wetlands provide little function in controlling the runoff.
    To conclude, we believe that the proposed rule in its 
truest form will impose enormous burdens on the North Slope 
with very little benefit to the environment. For thousands of 
years our people have relied on the natural environment for 
subsistence purposes and the social fabric of our community 
revolves around subsistence traditions. But the ability of the 
Inupiat to maintain our traditions, our communities, and the 
rudimentary services that make it possible for us to survive 
and thrive on the North Slope all depends upon our access to 
and our ability to use natural resources.
    The borough is the sole provider for nearly every essential 
service available to Alaska Natives and other residents on 
Alaska's North Slope such as housing, utilities, first 
responders, health care, and education. Over 97 percent of the 
municipal budget used to provide these services is derived from 
property taxes collected on oil and gas infrastructure. 
Consequently, any [inaudible] defining natural resource 
development attributable to [inaudible] permitting or 
mitigation requirements will have a direct and immediate impact 
on the borough's ability to pay for the services on which the 
health and welfare of residents depends. And because most of 
the land around the communities we serve would be classified as 
wetlands under the new regulation, the borough will face steep 
costs any time it attempts to provide new services or 
infrastructure that impacts wetlands.
    Under the proposed rule, 80 percent of the North Slope 
could be considered waters of the United States as compared to 
5 percent in the rest of the Country. Imagine how the Governor 
of New York State would react if 80 percent of the State of New 
York was suddenly considered waters of the United States 
[inaudible] regulation under the Clean Water Act. We're almost 
twice the size of New York and yet the EPA and Corps of 
Engineers did not bother to tailor their rule in a way that 
would make sense for our State and our region. At the very 
least, the proposed rule needs to be rewritten to clearly and 
unambiguously address the unique nature of wetlands that lies 
on top of permafrost.
    Bottom line, the proposed rule would have a 
disproportionate and entirely negative impact on the North 
Slope Borough and the Inupiat people. This is why we stand 
unified with all of our sister regional organizations in 
opposition to this proposed rulemaking and [inaudible] 
constituents. We thank you for the opportunity to testify this 
morning.
    [The prepared statement of Mayor Brower follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]     
    
    Senator Sullivan. Thank you, Madam Mayor, and thank you for 
that very powerful testimony. Congrats on the new grandchild. I 
hope the child and mother are doing well. I do want to just 
make a quick comment on your very insightful point about the 
State of New York and the Governor of New York and how they 
would feel if it wasn't 5 percent, but close to 85 percent of 
their territory being impacted. I think that it would be very 
different. And you're right, there's no element of addressing 
any aspect of the uniqueness of Alaska in this proposed rule. 
But you mentioned Governors. It should be noted that 35 States, 
including Alaska, a State official from DEC testified 2 days 
ago in Anchorage, 35 States oppose this rule and want it 
changed or either completely done away with, which I think 
speaks to your broader point about how Governors and States 
view this current proposed rule.
    Well, Senator Bishop and Mayor Brower, I was going to ask a 
series of questions. I'll just make it easy, so they'll be 
really addressed to both of you so either of you can respond or 
build on the other's answers. Let me first by just asking, 
given that you represent very large parts of the State of 
Alaska, as you mentioned, Mayor Brower, and I'm sure it's the 
same with Senator Bishop, the geographic scope of the 
responsibilities that you cover is larger, both of you, than 
many States in the Lower 48.
    Can you just briefly describe to the extent your 
constituents are aware of this rule and one of the--you know, 
one of the problems with a rule like this is that oftentimes 
our constituents are not aware and then all of a sudden it 
becomes a final rule and they're surprised. But to the extent 
your constituents are aware, what has been their reaction?
    Senator Bishop. Chairman Sullivan.
    Senator Sullivan. Yes.
    Senator Bishop. I'll take the first stab at that. It--I 
would note, you know, even as late as last night at 9:30 after 
I got done here in the building, I'm still fielding phone calls 
from concerned citizens, business owners, and as early as 6:30 
this morning I'm on my phone again. I've been contacted, you 
know, by all forms, e-mails, phones, faxes, et cetera, et 
cetera, postings on Facebook. They're all united in their 
opposition to this rule, which, you know, if you look up the 
definition of ``Federal overreach'' in the dictionary, you'll 
find a picture of the EPA extra--and in the original definition 
of ``navigable waters'' to eventually include every drop of 
water. They are not happy.
    Senator Sullivan. Madam Mayor, how about your constituents?
    Mayor Brower. Senator Sullivan, thank you for that 
question. My constituents, who are predominantly Inupiat 
people, everyday common people, people who are involved also in 
their Native village corporations, in their tribes, in their 
cities, who thrive every day in hopes that the North Slope 
Borough would help in every way. We do help, and they're not 
fully aware of this proposed rule and the impacts that it would 
have for the future of the North Slope, not because of what 
we're going after for the North Slope Borough, but for the 
people, for the existence of the people and the ruling that it 
would make. And I'm afraid that once this is out as the way it 
is, what is going to come down the road that's going to be like 
a big cannonball being thrown all over the North Slope, and 
that's the fear that I have.
    Senator Sullivan. Thank you, Madam Mayor, and I will note 
in the testimony in Anchorage 2 days ago, there was a senior 
executive from Arctic Slope Regional Corporation who testified 
and they were very opposed and had very detailed concerns about 
the rule.
    Let me turn to the issue--Senator Bishop, I know that 
you've been a leader on this throughout the State, the issue of 
federalism. You know, there's been a lot of concerns that this 
rulemaking process was very rushed and, indeed, it was very 
rushed. And there is an executive order; it's an executive 
order numbered 13132. It's called the federalism Executive 
Order and it states, ``When undertaking to formulate and 
implement policies that have federalism implications, agencies 
shall, in determining whether to establish uniform national 
standards, they shall consult with appropriate State and local 
officials as to the need for national standards and any 
alternatives that would limit the scope of national standards 
or otherwise preserve State prerogatives and authority.''
    Madam Mayor, that federalism Executive Order is in addition 
to the trust responsibilities the Federal Government has with 
regard to consulting with Alaska's Native people. Do you 
believe that the federalism Executive Order in this case was 
abided by?
    Mayor Brower. Senator Sullivan, no, we were never properly 
consulted on this nor was it consulted to--directly to the 
tribes as well. So there is a failure of communication.
    Senator Sullivan. Thank you, Madam Mayor. Senator Bishop.
    Senator Bishop. Senator Sullivan, I concur with Mayor 
Brower. No, they obviously didn't read their own memo down at 
the EPA.
    Senator Sullivan. Thank you. I want to dig into an issue 
that you raised, which I think is very important for Alaskans 
to know about. Senator Bishop, if you could talk a little bit 
more about the Connectivity Report. And, just for the record, 
the Connectivity Report was a report that the EPA was using to 
base--as a basis of the science to move forward with the rule; 
however, the rule was promulgated well before the Connectivity 
Report was ever made public, which, as you can see, as you 
mentioned, is a bit of the cart before the horse.
    Can you talk a little bit more about that issue? I think 
most people are unaware of that and it does show the rushed 
process.
    Senator Bishop. Yes. Briefly, I just--you know, in 
reviewing the three Supreme Court decisions as it relates to 
your question at hand, I just find it--I'm just--I'm 
flabbergasted at the EPA, you know, on these three Supreme 
Court decisions on the connectivity piece. The Supreme Court 
has spoken very clearly on this, but yet the EPA just doesn't 
get it and they're trying to circumvent the Supreme Court. And 
I just find it--I'm overwhelmed. I just can't believe that they 
can't--you've got three Supreme Court decisions that's written 
in plain English, even I understand it, but yet the EPA doesn't 
understand it and they still want to try to connect these 
waters.
    Senator Sullivan. Let me ask a related question with regard 
to a simple but critical issue that I'm sure I'm going to dig 
into with regards to the next panel as well.
    Do you see this, Mayor Brower and Senator Bishop, do you 
see this as an expansion of the EPA's jurisdiction over waters 
in Alaska as the rule is currently written?
    Senator Bishop. Chairman Sullivan, this is definitely, 
definitely a grab to include all waters, everything they can 
get their hands on.
    Senator Sullivan. So you would see this as an expansion of 
the EPA's jurisdiction?
    Senator Bishop. Absolutely. Absolutely. You know, and 
furthermore I just--you know, what really floors me about this 
whole process is they have not done a cost-benefit analysis on 
what the impact is to the United States economy or the Alaskan 
economy.
    Senator Sullivan. Madam Mayor, do you see this as an 
expansion of the EPA's jurisdiction over waters in Alaska?
    Mayor Brower. Yes. Senator Sullivan, this would have a 
tremendous impact on the lives of the whole North Slope, not 
only the North Slope, but the whole State of Alaska. Their 
continuous presence that they want to do, they're doing it in 
the wrong way. We hardly ever see EPA up in our area. The only 
time that EPA comes out is when they're having the Alaska 
Eskimo Whaling Commission meetings and they're there talking 
about rules that concerns [inaudible] or rules that they have 
to do. And they're not--they're just doing a textbook theory; 
it's not going to work. They need to come to us and face us and 
then turn every waters, every--all our land has been submerged 
in water, but yet they're not coming to us. They're not seeing 
the fact that we can live on top of snow, we can travel on top 
of snow, we can travel on frozen oceans and go out whaling, 
everything.
    But, you know what, it does become spring and it does 
become water and it always appears like it's wetlands, but 
we've lived with it for ten thousands of years. They are not 
here; they're living in DC.
    Senator Sullivan. Thank you for that very powerful 
testimony. Let me go on to another issue that, Senator Bishop, 
you raised and I would like again both of our distinguished 
witnesses to address this.
    The EPA has stated in their cost-benefit that there would 
not be--there would not be--significant costs with regard to 
implementing this rule. Do you--Senator Bishop, do you agree 
with that? Do you agree that there would be no significant 
costs? And in particular with regard to the Interior, what do 
you think the impact would be on the small placer miners that 
are still trying to eke out a living in this part of the State?
    Senator Bishop. Oh, you know, and that's a good question, 
you know, because they haven't done a cost-benefit analysis. It 
would--I would say it would be in the millions of dollars and 
put--you know, it has the potential to put 360 to 460 small 
placer miners out of business, but bigger than that, we're 
trying to monetize Alaska's North Slope gas with the AK-
Language project and to date just the impacts of the wetlands 
mitigation disturbance just on the route that's been identified 
to date has already added a quarter of a billion dollars to the 
project that's already--you know, it needs to be looking at 
every nook, cranny, and corner to save a nickel. And proposing 
this rule, who knows what it will add to the cost of that 
pipeline, and that's Alaska's economic future for the next 
hundred years.
    Senator Sullivan. Madam Mayor, do you agree with the EPA, 
there's no significant cost to this rule?
    Mayor Brower, are you still with us?
    Mayor Brower. Yes. There will be a future where we'll 
struggle to provide basic services because of the increased 
cost of wetlands mitigation. We have already captured a glimpse 
of this future with our recent efforts to permit an expansion 
of a local landfill. The cost assessed on the borough for 
wetland mitigation exceeded $1 million, not including what we 
have to spend throughout the permitting process. That's 1 
million less dollars to pay for teachers, health aides, for 
police officers, or to provide any number of other services.
    Even worse, we know that much of this money won't be used 
to benefit the North Slope. Part of the reason is that we have 
been such good environmental stewards. We don't have toxic land 
to clean up like they do in the Lower 48. It seems like in some 
ways we're being penalized for being responsible. In addition, 
the borough's rural villages are mostly populated by the 
Inupiat Eskimos and they all lie in the areas that would be 
classified as wetlands. Nearly every kind of construction 
activity would be required from impact to wetlands. So our 
villages would be constrained by additional permitting 
requirements and mitigation if they required any additional 
infrastructure in their communities. There is no other place in 
America where the impacts of the proposed rule would fall so 
heavily on one minority.
    Senator Sullivan. Thank you, again. That was very powerful 
testimony. And your point about wetlands mitigation came up in 
the Anchorage hearing and perhaps in the next panel we can 
discuss that because that is another area where Alaska is 
clearly, uniquely impacted.
    I also want to just mention for the record with regard to 
the issue of cost, the Regulatory Flexibility Act, which is a 
Federal law, requires agencies to examine the impacts of a 
proposed regulation on small government entities, like we have 
in Alaska, and small businesses. The EPA and the Corps, under 
this rulemaking, instead certified that this proposed rule will 
not have significant impacts on small entities, businesses, or 
small communities. They certified that.
    Kathie Wasserman, the executive director of the Alaska 
Municipal League, which represents over 130 small communities 
in Alaska, testified that that was completely incorrect. More 
importantly, in some ways, the Obama administration's own Small 
Business Association, the SBA, the chief counsel for the SBA 
Office of Advocacy, determined that this certification by the 
EPA and the Corps was in error and improper. Under the 
regulatory act, the Corps and the EPA are required to conduct 
small business advocacy review panels to determine costs, as 
Senator Bishop mentioned. They failed to do that on this rule, 
which led to the comments filed by the SBA of the Obama 
administration's Office of Advocacy, and they stated, 
``Advocacy, the SBA, and small businesses are extremely 
concerned about the rule as proposed. The rule will have a 
direct and potentially costly impact on small businesses. The 
limited economic analysis,'' which is what Senator Bishop 
mentioned, ``which the agency submitted with the rule provides 
ample evidence of a potentially significant economic impact. 
The SBA Advocacy Office advises the agencies to withdraw the 
rule and conduct an SBAR panel prior to promulgating any 
further rule on this issue.'' This is the Obama 
administration's own Small Business Administration saying the 
rule needs to be withdrawn because of its negative impacts on 
small businesses.
    So, Senator Bishop, Madam Mayor, I think that you even have 
elements of the Obama administration that are in agreement with 
you.
    I'd like to conclude by asking a final question. Do you 
think the EPA would have benefited from the assistance of those 
with actual knowledge of wetlands, of the waters of Alaska in 
your communities and the unique hydrology and geographic 
features that we have here before promulgating a rule that is 
the classic Washington, DC, one-size-fits-all approach to clean 
water? We all want clean water. As I mentioned at the outset, 
Alaskans do a much better job than the EPA and Washington on 
keeping our waters clean.
    Do you think that this rule would have benefited from the 
input of constituents from your senate district, Senator 
Bishop, or you, Madam Mayor, constituents from the North Slope 
Borough or you and your staff?
    Senator Bishop. Chairman Sullivan, it would behoove the 
department greatly to take into serious consideration with 
boots on the ground, I mean boots on the ground, not boots in 
Washington, DC, but boots on the ground walking from maybe 
Kaktovik to Barrow looking at what permafrost looks like, or 
walking from the Charlie River to Fort Yukon looking at what 
the ground looks like. And, I mean, I'm serious, this is--I'm 
just flabbergasted. You know, again, you said it very 
eloquently: it's done in Washington, DC, it's done in a vacuum. 
The people--if I would have proposed a regulation like this at 
the Department of Labor without giving the people of Alaska 
their full and just due or a proper hearing and proper 
notification, I would have been strung up by my bootstraps.
    And the last thing I'd like to say in closing is--you might 
want to have your staff reference this and send a copy to the 
EPA. In President Obama's State of the State speech 4 years 
ago, on page 2 or page 3, he says, ``Where my agencies are 
overreaching and stifling business in the United States, I'm 
going to work to lessen that impact.''
    They need to go read the President's own memo from his 
State of the State speech.
    Senator Sullivan. Thank you, Senator Bishop. Madam Mayor, 
would the EPA have benefited from the very, very significant 
expertise and wisdom and traditional knowledge that exists on 
the North Slope before promulgating this rule?
    Mayor Brower. Yes, we'd like to say that Alaska is a unique 
and a special place, and that is especially true in the context 
of our geography and hydrology. No other State in our union has 
tundra or permafrost, and many people in the Lower 48 fail to 
grasp the sheer size and expanse of our State and regions. As I 
mentioned in my comments, the proposed rule does not even 
reference these critical features. On the North Slope, 
particularly, relatively little is known about the nature and 
function of our Arctic wetlands and much of what we do know has 
come from studies conducted by the oil industry.
    Given these facts, I don't believe that EPA has the 
information that's needed to make an informed ruling. It is 
important for the Federal Government to recognize the role that 
the State and local municipalities can play in the permitting 
process. Our local knowledge and expertise is critical in 
recognizing impacts and mitigating negative consequences 
associated with a potential project. State and local 
governments are also more in tuned with the desires of the 
local communities and are well-equipped to understand the 
proper balance between facilitating economic development and 
the protection of the environment.
    Senator Sullivan. Well, I want to thank both of you for 
your very powerful testimony. I will note for the record, 
sometimes the written record doesn't convey the sense of 
frustration and exasperation that these two important witnesses 
have articulated, but it was clearly there. And they represent 
very, very important elements of the State, large swaths of the 
State. And, for the record, I want to note that.
    Senator Bishop, Mayor Brower, do you have any concluding 
comments that you'd like to leave before we move to the next 
panel?
    Senator Bishop. Yes. Chairman Sullivan, thank you so much 
for coming home, holding this hearing in Fairbanks and 
throughout Alaska. It's greatly appreciated. And don't give up 
the fight. Keep fighting the fight and we're behind you 110 
percent.
    Senator Sullivan. Thank you, senator. Madam Mayor, any 
concluding comments?
    Mayor Brower. Thank you, Senator Sullivan. I personally 
want to thank you for [inaudible] me as mayor of the North 
Slope Borough and as an Inupiat woman, very strong in issues 
that you have in my region. And I think that the EPA needs to 
delay implementing this rule in Alaska until it conducts public 
meetings of which you are giving throughout the towns and 
villages that would be so heavily impacted by this rulemaking. 
I don't think our people understand the extent this rulemaking 
will impact their lives. I also think the agencies should 
conduct an extensive analysis of the Arctic hydrology 
environment and have a better understanding of our region 
before they implement this rule.
    And thank you very much for having this in Fairbanks, and I 
apologize, I am between three meetings, and I thank you very 
much for allowing me to testify; although I would have loved to 
have testified in every one and be very vibrant in what I say. 
Thank you very much.
    Senator Sullivan. Well, thank you both again for your 
powerful testimony and we really appreciate the insights that 
you provided to the EPW committee. These will be important as 
we move forward with regard to the national debate on this 
rule.
    So we're going to move forward from the first panel and 
we're now going to move on to our second panel of distinguished 
witnesses. We have seven witnesses. We will have 5-minute 
statements from each, and then we will then conduct a series of 
questions and answers.
    So why don't we begin with Sara Taylor, the executive 
director of the Citizens' Advisory Committee on Federal Areas.

    STATEMENT OF SARA TAYLOR, EXECUTIVE DIRECTOR, CITIZENS' 
              ADVISORY COMMISSION ON FEDERAL AREAS

    Ms. Taylor. Chairman, thank you for allowing me to testify 
today and especially thank you for coming to Alaska to have 
hearings on this very important issue.
    For the record, my name is Sara Taylor. I am the executive 
director of the Citizens' Advisory Commission on Federal Areas, 
commonly known as CACFA. The CACFA was established by the 
Alaska State Legislature in 1981 to monitor and mitigate 
negative impacts to Alaskans from the complex mandates, diverse 
management schemes, and highly discretionary rules and 
regulations that apply to just about 222 million acres of our 
State. We work with individuals and agencies to safeguard and 
preserve the rights and interests of Alaskans and we maintain 
decades of institutional memory of engagement with over a dozen 
Federal agencies.
    I could explain in great detail how the proposed rule is 
legally indefensible or just really bad public policy, but I'd 
much rather spend the time talking about what it means to 
Alaskans. One recurring theme of management of Federal lands in 
Alaska is a manifest paternalism, blind to our needs and 
experiences which stifles our opportunity for social and 
economic autonomy and prosperity. We are quite accustomed to 
and frankly tired of being the subject of a table-top exercise 
thousands of miles away. In many ways, the proposed rule is 
very emblematic of this approach to Alaska.
    When the agencies say that Alaskan waters require Federal 
protection, they mean protection from us, the people whose very 
survival depends on clean water. To most Americans, Alaska is 
an idea. It's a trophy hunt. It's a dream vacation. It's a post 
card. It's a reality show. It's a means of preservation and 
atonement for the industrialized state of our Nation. But 
Alaska is not an abstract concept to us. Alaska is our home. 
This is our being and water is the intravenous system which 
feeds us both spiritually and physically.
    The Clean Water Act recognizes that there are no better 
stewards of clean water than the people who fish in it and swim 
in it and drink it, and the State of Alaska has the authority 
and the responsibility and the very detailed expertise to 
manage water regardless of jurisdiction in our State. And the 
regulation of water and land use is a very traditional State 
and local power that deserves both legal and intuitive 
deference, but the EPA and the Corps of Engineers did not even 
consult with the State in developing this rulemaking, and this 
rulemaking unapologetically hijacks those powers and 
obligations. But Alaskans do more than depend on our water. We 
also understand it and if our water needs protection, it's from 
administrators who do not understand it.
    Alaska has more wetlands than all the other States 
combined. Alaska has more coastline than all the other States 
combined, but the proposed rule and the 2013 draft Connectivity 
Report completely failed to acknowledge our very unique 
geomorphological and hydrologic conditions. These would be the 
conditions that apply to the vast majority of areas impacted by 
this rulemaking, things that have been mentioned like 
permafrost, like tundra, spruce bogs, muskegs, just those types 
of situations, ice fields, glaciers. It's confusing. It's very 
confusing to see how this proposed rule will actually impact 
Alaska, which begs the question as to why application of this 
rule is left to agencies who do not care or do not know enough 
to even include the consideration of these very unique 
conditions.
    The proposed rule will not only deprive Alaska of its 
traditional and sovereign powers. It will also 
disproportionately impact our ability to grow and prosper. Out 
of 283 total communities in Alaska, 215 of them live within 2 
miles of a navigable, in fact, water or coastline and the 
proposed rule expands the area that will be subject to Federal 
permitting authority to the point where the development and 
sustainability of these communities is going to be either 
subject to a very expensive jurisdictional question or a very 
expensive concession of jurisdiction, and both scenarios raise 
major due process concerns where private property owners, 
communities, and sovereign States need to pay to ask the 
Federal Government if permission is needed or pay the Federal 
Government for permission regardless of whether permission is 
actually needed just to safely avoid fines, penalties, even 
endless litigation. And what happens to your property rights 
when you can't afford to ask that question?
    Alaskans are no strangers to Federal regulations governing 
essential aspects of our lives and I'm not sure how much more 
can be demanded of us, but I do know that this demand 
mischaracterizes the state of the law and unconstitutionally 
interferes with our authorities, but what's worse is it's not 
going to enhance the protection of our waters. Thank you very 
much.
    [The prepared statement of Ms. Taylor follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
          
    Senator Sullivan. Thank you, Ms. Taylor. Very eloquent 
testimony there. Our next witness is Sue Mauger. She is a 
science director for Cook Inletkeeper.

  STATEMENT OF SUE MAUGER, SCIENCE DIRECTOR, COOK INLETKEEPER

    Ms. Mauger. Chairman Sullivan, thank you for the 
opportunity to testify today. I've submitted written testimony 
and ask that it be included in the record.
    My name is Sue Mauger and I am the science director for 
Cook Inletkeeper, which is a community-based non-profit 
organization started in 1995 and dedicated to protecting clean 
water and healthy salmon for Alaskans. Please accept this 
testimony on behalf of Cook Inletkeeper's staff, board of 
directors, and more than 2,000 members and supporters across 
Southcentral Alaska.
    My comments and support for clarifying protections of 
Waters of the United States under the Clean Water Act are based 
on my experiences working in Alaska's fresh water systems for 
the last 15 years. Recently my work has involved using thermal 
infrared technology to identify and map shallow groundwater 
connections that provide key sources of cold water in the 
summer as well as warm water for juvenile salmon in the winter. 
Exploring these complex surface and subsurface connections 
reinforces to me that in Alaska, as in the rest of the United 
States, protecting tributaries and adjacent wetlands is vital 
for protection of the integrity of downstream waters.
    In my opinion, the impact of the proposed rule will be 
decidedly positive for Alaskans and I'd like to share with you 
three reasons why. First, Alaskans rely on wild salmon and 
other cold water fish for commercial, economic, cultural, and 
nutritional health. Presently, Alaska's fresh water habitats 
are largely intact and support some of the most robust wild 
salmon populations in the world. This is, in part, due to the 
extensively connected systems of small headwater streams and 
supporting wetlands. State biologists down on the Kenai 
Peninsula are doing exciting research which shows how broader 
landscapes are linked to stream productivity and juvenile 
salmon densities. Through the delivery of alder-derived 
nitrogen and peatland-derived carbon into headwater streams, 
whole ecosystem responses are generated, which underscores the 
importance of landscape connectivity.
    This makes me think of wetlands functioning like a coffee 
filter. Just as my morning cup of caffeine helps bring me back 
to life and increases my productivity, rich nutrient-laden 
waters percolating out of saturated wetlands helps drive stream 
productivities. The investment of nutrients from the landscape 
into the smallest of our streams pays off huge dividends in the 
form of vibrant fisheries. The proposed rule will clarify these 
protections for key habitats that help salmon and, in turn, 
helps Alaskans thrive.
    Second, Alaskans rely on wetlands to reduce flood peaks, 
which put our heavily subsidized transportation infrastructure 
at risk. Fall storms are hard on our roads and bridges. I 
remember well the devastating floods of 2002 when sections of 
the Sterling Highway blew out, leaving the lower Kenai 
Peninsula cut off for days. We had two 100-year flood events 
within a month of each other. Poorly placed inadequately sized 
culverts in the upper watersheds failed which resulted in 
pulses of debris torrents causing extensive damage downstream. 
Fall storms will continue; however, a decrease in wetland cover 
can greatly increase peak flows and increase downstream flood 
damage.
    In fiscal year 2015, the Federal budget covers 
approximately 90 percent--90 percent--over $1 billion of 
Alaska's road costs. It hardly seems like Federal overreach for 
the EPA to implement a rule which will reduce flooding 
potential by keeping wetlands intact when the Federal budget is 
footing the bills to fix our flood damage.
    Third, Alaskans rely on groundwater sources of drinking 
water. Across our rural landscape, the majority of Alaskans 
have private wells or use surface springs for drinking water. 
Our wetland-dominated landscape makes this possible by 
consistently recharging our aquifers. Most wells used to supply 
water to individual homes yield water from shallow aquifers, 
which were recharged within the last 25 years. Shallow aquifers 
contain groundwater that is primarily from infiltration of 
local rain and snow and discharge from streams, lakes, and 
wetlands and thus are susceptible to contamination. Keeping 
potential contaminants away from these water sources is by far 
less expensive than trying to remove contaminants once they 
move into the groundwater. The proposed rule, by clarifying 
protections for these water bodies, will reinstate Alaska's 
confidence that their drinking water is safe for their 
families.
    One argument that some have made to delay or significantly 
alter the proposed rule is that Alaska's hydrologic 
circumstances are unique. And I couldn't agree more with that 
observation. Alaska's fresh water situation is unique, uniquely 
intact and connected. Rare circumstances for the Lower 48. But 
with the current uncertainty of what constitutes the waters of 
the United States, Alaskans' clean water and healthy salmon are 
at risk of a death by a thousand cuts.
    Now the EPA and the Army Corps of Engineers, agencies not 
known for playing nicely together, have, in fact, come up with 
language that they can work with to fulfill the goal of the 
Clean Water Act. Congress ought to move forward now by 
approving the protections provided by the proposed rule. 
Alaskans will be better off for it. Thank you.
    [The prepared statement of Ms. Mauger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Sullivan. Thank you, Ms. Mauger. Our next witness 
is Bryce Wrigley and Mr. Wrigley is president of the Alaska 
Farm Bureau. I've worked with him on many issues. So, President 
Wrigley, the floor is yours.

   STATEMENT OF BRYCE WRIGLEY, PRESIDENT, ALASKA FARM BUREAU

    Mr. Wrigley. Thank you, Senator Sullivan. I appreciate the 
opportunity to testify at this hearing.
    The Clean Water Act regulates navigable waters and is 
defined as waters of the United States. It does not regulate 
all waters. The U.S. Supreme Court has recognized that the term 
``navigable'' delineates what Congress had in mind when it 
enacted the Clean Water Act. That was its traditional 
jurisdiction over waters that were or had been navigable, in 
fact, or which could be reasonably made. In fact, it was very 
clear that Congress did not intend for the Clean Water Act to 
cover all waters. When it enacted the Clean Water Act, Congress 
explicitly recognized, preserved, and protected the States' 
primary authority and responsibility over local land and water 
resources. The proposed Waters of the U.S. rule attempts to 
usurp the States' traditional and primary authority over land 
and water use.
    The EPA and the Army Corps have made several attempts to 
assert jurisdiction over waters and water bodies that the 
Supreme Court has found to be outside their jurisdiction. The 
agencies have demonstrated a continual pattern of pushing and 
bullying the State and local governments and intimidating 
private citizens as they have repeatedly sought to assert 
control over additional waters and land. For example, after the 
Supreme Court found that isolated waters fall outside the Clean 
Water Act jurisdiction, it clarified that in classifying a new 
area as a wetland, a significant nexus to an existing navigable 
water must exist. The agencies next asserted that the decision 
was limited to isolated waters and that if a water body had any 
connection to a navigable water, it was no longer an isolated 
water body and could therefore be regulated as a navigable 
water under the Clean Water Act. The agencies' rationale was 
that, in the end, all waters are connected, which essentially 
include all wet areas, including ditches, drains, desert 
washes, and ephemeral streams that flow infrequently and may be 
miles from traditional navigable waters.
    The Supreme Court again rejected the Corps' broad 
interpretation and the court found that the plain language of 
the Clean Water Act does not authorize this expansion of 
Federal jurisdiction and that in applying the definition so 
broadly to seasonally wet features, the Corps had stretched the 
term ``waters of the United States'' beyond parody. Further, 
the court clarified that the act confers jurisdiction only over 
relatively permanent bodies of water.
    The implementation of the rule as it now stands will expose 
farmers and ranchers to legal action if they engage in normal 
farming activities. If a low spot in a field is, indeed, 
determined to be a wetland under the expanded definition 
because it sometimes holds or sheds water, it may require 
dredge or fill permits to plant or harvest our fields. It may 
also require a discharge permit for applying fertilizer or 
pesticides to crops. And just because an operation is organic 
doesn't mean that it would get a pass. Organic operations would 
also need dredge and fill permits for planting and harvesting 
and would also need discharge permits to apply manure or 
compost to their fields.
    I decided on the way in today that most of those listening 
have no idea of what I'm even talking about. Your experience 
with agriculture is through the food you eat, so you cannot 
understand the impact of this rule on America's farmers. So, in 
an effort to help you understand, I've decided that I'm going 
to start a project to redefine food.
    According to the Supreme Court, a significant nexus must 
occur or be present. It is required to be able to--and that is 
required to be able to reclassify a substance as food. Applying 
EPA's logic to this model, I've determined, and I'm sure you'll 
agree, that what animals eat and then poop out meets the 
significant nexus requirement for human food. They eat the same 
things we do. Then, to make sure that these resources are not 
wasted, I'm going to impose a $37,000 fine per day on anyone 
who does not eat this new food. So your menu options at the 
restaurant will change. You can now choose chicken poop 
tenders, poop chops, or cow pie steak. Now, you laugh because 
you realize that I have no authority to implement these food 
changes. Imagine if I was a powerful Federal agency with the 
full power and backing of the U.S. Government behind it and 
decided to implement these changes. What would your reaction 
be?
    Congress has allowed the creation of this vast bureaucracy 
which, in all practicality, is a fourth branch of the 
government. This fourth branch is not beholding to nor can it 
be removed by we, the people. Our only recourse is to rely on 
Congress to impose strict limits on their authority and their 
rulemaking. Both Congress and the Supreme Court have told EPA 
that this rule oversteps the intent of Congress.
    I urge you in the strongest possible terms to confine EPA's 
authority to those navigable waters, as was clearly intended by 
Congress when the Clean Water Act was passed. Thank you.
    [The prepared statement of Mr. Wrigley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Sullivan. Thank you, President Wrigley, and thank 
you for all the work you do on behalf of Alaska's farmers. It's 
a group of our citizens that do incredible work for all of us, 
and I appreciate your testimony.
    Our next witness is John MacKinnon, executive director of 
the Associated General Contractors of Alaska. Mr. MacKinnon, 
the floor is yours.

  STATEMENT OF JOHN MacKINNON, EXECUTIVE DIRECTOR, ASSOCIATED 
                 GENERAL CONTRACTORS OF ALASKA

    Mr. MacKinnon. Thank you, Chairman Sullivan. For the 
record, my name is John MacKinnon. I'm the executive director 
of the Associated General Contractors. The AGC is a 
construction trade association representing approximately 650 
contractors, suppliers, manufacturers, and businesses in 
Alaska. Within our membership is the majority of Alaska's 
construction industry. AGC contractors are involved in the 
construction of Alaska's public and private buildings, 
highways, bridges, docks, and harbors, and the preparation of 
access roads and development pads necessary for the extraction 
of our natural resources.
    The industry obtains general and individual permits to 
perform construction activities in or near waters of the United 
States and permits for stormwater discharges, both covered 
under the Clean Water Act. As such, this proposed guidance will 
pervade all stages of construction and will have a substantial 
impact on the construction industry.
    Prior to joining AGC 8 years ago, I was--and becoming an 
advocate for the construction industry, I was a deputy 
commissioner of the Alaska Department of Transportation and an 
advocate for transportation projects in Alaska. During that 
time, you know, DOT oversees 249 airports throughout the State, 
11 ferries serving 35 communities, 5,600 miles of highways, and 
720 buildings throughout Alaska. And one of my responsibilities 
at DOT was overseeing the maintenance and construction programs 
for all of those facilities. Major projects in this State often 
require--trigger NEPA and require an environmental impact 
statement, and the challenge we had was that the average EIS 
for a federally funded transportation project takes about 5 
years from beginning to reaching a record of decision. From 
that point of the record of decision, the project sponsor then 
begins to get the dozens and dozens of permits required in 
order to go to construction. The average time for a major 
highway project that requires an EIS from beginning the EIS to 
completion of the project--this is the average time--is 13 
years. It's no wonder transportation projects take so long to 
deliver when you consider all of the permits and permissions 
required.
    I have attached to my written testimony a graph like this 
which shows the Federal environmental requirements affecting 
transportation. That's about 1965 where it starts on that 
trajectory upward.
    Senator Sullivan. We want to make sure that will be 
submitted for the record.
    Mr. MacKinnon. Yes, thank you. You know, I might add that 
in--about 40 years ago, 1970 or so, approximately 90 cents out 
of every dollar for a construction project went out as a 
payment to contractors. That was dirt in the ground, pavement 
and that. Today it's under 70 cents on every dollar of a 
construction project goes out as a payment to contractor. The 
balance in there, that twenty-some cents, is going into process 
and permits and much of it adds very little value to the 
project.
    In Alaska, a lack of adequate transportation is one of the 
biggest impediments to our economy. Forty years ago, the 
biggest obstacle we had to doing something was scraping the 
money together. Today, the biggest obstacle is getting 
permission, and this will only exacerbate that.
    Development of wetlands falls under the guideline hierarchy 
of avoid, minimize, and mitigate. And when designing a project, 
the first objective is to avoid any impact to wetlands. People 
don't set out to impact wetlands. It just happens because roads 
and airport construction, projects in general, prefer flat 
ground and in Alaska that's where you find wetlands. When 
avoidance isn't possible, you work to minimize the impact on 
wetlands and any wetlands impacted are subject to a fee-in-lieu 
mitigation payment. Depending on the class of the wetlands 
disturbed, mitigation can be up to $55,000 per acre. This is up 
from $10,000 an acre relatively few years ago. That makes 
Alaska's 170 million acres of wetlands worth over $9 trillion.
    The simple conclusion to draw is that this proposed 
guidance is increased jurisdiction, it is increased permitting, 
it is increased mitigation, and it is increased cost.
    The Clean Water Act has worked as intended in the 40-some 
years since it became law. We've corrected most of our 
environmental problems and degradation. We probably have the 
cleanest country on Earth. We've overcompensated in so many 
areas as the chart shows, and now the bureaucracy is again 
taking the law, and through regulations, stretching it beyond 
its original intent.
    In conclusion, in Alaska's case, we're held to the same 
standard as the rest of the Country and we're not the same 
condition. The present jurisdiction exceeds what's necessary to 
protect the environment and maintain interstate commerce. The 
proposed changes will have a significant negative effect on the 
construction industry and the economy and the guidance under 
WOTUS will have a further material impact on permitting and 
enforcement nationwide. Thank you.
    [The prepared statement of Mr. MacKinnon follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Sullivan. Thank you, Mr. MacKinnon, for that very 
powerful testimony.
    Our next witness is Austin Williams. He is the Alaska 
Director of Law and Policy for Trout Unlimited. Mr. Williams, 
the floor is yours.

   STATEMENT OF AUSTIN WILLIAMS, ALASKA DIRECTOR OF LAW AND 
                    POLICY, TROUT UNLIMITED

    Mr. Williams. Thank you. Chairman Sullivan, my name is 
Austin Williams. I'm the Alaska Director of Law and Policy for 
Trout Unlimited, which I will abbreviate as TU.
    Thank you for the opportunity to testify and please also 
include the written testimony that I have provided as part of 
the record.
    TU is the Nation's largest sportsmen organization dedicated 
to cold water conservation, with more than 1,000 members in 
Alaska. They are passionate anglers, lodge owners, fishing and 
hunting guides, commercial fishermen, among various other 
occupations. In addition to our members in more remote parts of 
the State, we have active chapters in Fairbanks, Anchorage, and 
the Mat-Su, on the Kenai Peninsula, and in Southeast. TU 
supports the Clean Water Act rule because it will ensure 
protection of critical water resources, the Nation's millions 
of miles of headwater streams, and Alaska's most important and 
productive waterways. We cannot ensure clean water in our most 
valuable rivers and streams without also protecting the smaller 
waters that feed in to them, yet recent administrative guidance 
following two Supreme Court cases, SWANCC in 2001 and Rapanos 
in 2006, has thrown decades of precedence, logic, and stability 
on its head.
    After repeated requests from TU, along with many other 
sportsmen organizations, businesses, and industry groups, the 
Corps and the EPA have finally taken the strong step to propose 
a fix that will help provide clarity and consistency within the 
act while ensuring clean water protections for our fish and 
wildlife, including Alaska's iconic salmon runs.
    At the heart of the agencies' proposal is what every 
sportsman knows: that small streams influence the health of 
large rivers and that clean water for small streams help grow 
big fish. Like many Alaskans, I first came to our great State 
to experience its legendary fish and wildlife and, like many 
more Alaskans, these qualities are why I continue to call 
Alaska home, and why my wife and I choose to raise our family 
here. My son is only 3 and my daughter is not yet 2 months old, 
but my hope is that they can grow up and enjoy the same great 
fishing and hunting opportunities available to you and me, 
which all depend on clean water.
    Fishing isn't just part of the Alaska way of life, it's 
also big business. Nearly $650 million a year is spent on sport 
fishing in Alaska. When you factor in multiplier effects, sport 
fishing accounts for more than a billion dollars in economic 
impact to Alaska communities. Add in hunting and other 
wildlife-related recreation, then the total climbs to $3.4 
billion each year. Alaskans also commercially harvested 157 
million salmon last year worth more than half a billion dollars 
at the dock and the number is projected to increase this year 
to more than $220 million--or 220 million salmon. I'm sorry. 
And all of this is possible because of clean water.
    Those that claim the sky is falling with regard to the cost 
of complying with the proposed rule or that claim that 
development will come to a screeching halt fail to recognize 
that even greater value, clean water and the fish and wildlife 
it supports, provides to Alaskans. And, besides, before SWANCC, 
when the jurisdictional reach of the Clean Water Act was even 
greater than what is proposed under the current rule, Alaska's 
population nearly doubled from 324,000 to 633,000 people, and 
its gross domestic product nearly doubled from $15 billion to 
$29 billion per year. Oil, gas, and coal production all 
increased several times over during the same period. Economic 
development and clean water protections can co-exist under this 
proposed rule.
    In a recent statewide poll, 96 percent of Alaskans said 
salmon are essential to the Alaskan way of life. Eighty-nine 
percent said that even in tough economic times, funding for 
salmon conservation should be maintained. Eighty percent said 
that protecting the forests, tundra, and wetlands around 
streams is as important as protecting the streams themselves. 
Seventy-nine percent of Alaskans were concerned about pollution 
in rivers, lakes, and streams, which is on par with issues like 
reducing the Federal budget deficit and unemployment.
    TU is a science-driven organization and in this case the 
science is clear: headwater streams provide essential habitat 
for important fish and wildlife, contribute to the water 
quality of larger downriver streams. Better habitat means 
better fishing and better fishing is good for Alaska. Thank 
you.
    [The prepared statement of Mr. Williams follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Sullivan. Thank you, Mr. Williams. I appreciate the 
testimony.
    Our next witness is Deantha Crockett. She is the executive 
director of the Alaska Miners Association. And, Ms. Crockett, 
appreciate your testimony. Thank you.

   STATEMENT OF DEANTHA CROCKETT, EXECUTIVE DIRECTOR, ALASKA 
                       MINERS ASSOCIATION

    Ms. Crockett. Thank you very much. For the record, my name 
is Deantha Crockett and I'm the executive director of the 
Alaska Miners Association. AMA is a trade association. It 
represents all aspects of Alaska's mining industry.
    As you mentioned, this rule is massive and, I'll add, 
inappropriate of an expansion. The reality here has been 
discussed, so I'll move on.
    Aside from the legality issues, AMA has spent considerable 
amount of time in collaboration with our partners in other 
States to examine the impacts of this proposed rule. We found 
that no matter what geographic location with the constituency 
reviewing the proposal, all had significant issue with the 
proposed rule. Yes, what effects water permitting and mining 
operations in Nevada is significantly different than operations 
here in Alaska, but therein lies the complexity of this 
proposal. The Clean Water Act is explicit in governing how 
water is managed across the Nation and, since its passage, 
operations have understood the requirements of the act. This 
proposal dramatically shifts that understanding by redefining 
what a water actually is. Nevada, clearly a dry, arid region, 
is seeing the possibility of regulation of manmade water bodies 
at mining operations. Alaska, with water being one of our most 
plentiful resources, is seeing the possibility of having to 
regulate stormwater and diversion ditches.
    You've asked me here today to discuss impacts of this 
proposed rule on Alaska's miners. First, I'd like to be clear 
and address our previous 2008 comments that were taken out of 
context at your hearing on Monday. The Trustees for Alaska 
indicated that we asked for clarity at that time, and they are 
correct, but this is not it. The lack of clarity throughout 
this document is actually our major concern. Definitions of key 
terms and concepts like waters, flood plain, wetlands, 
subsurface connection, et cetera, are completely ambiguous. 
There is no room for confusion when it comes to permitting and 
regulating mining projects in Alaska. We depend on, and we 
believe the public does, too, a rigorous science-based 
permitting system. Without explicit definition of all technical 
and enforceable terms we are left with an unpredictable and 
confusing proposed rule. We can only assume that we will also 
be left with undefined terms that will be subject to 
interpretation by the agencies.
    To be perfectly frank, we fear this provides an avenue for 
our Federal agencies to take a large leap into overreach and 
place unreasonable regulations on mining projects simply 
because they can. Both agencies have hosted public forums in 
which stakeholders have posed questions about the rules and in 
the forums that I've participated in, the agencies could not 
provide definitions or responded that the intent of the 
proposed rule isn't actually what they meant in the language, 
et cetera, and that we should put in our comments what our 
concerns are and allow them to address it at that time.
    One of the instances I'm thinking of here is in July, the 
National Mining Association hosted a meeting with Greg Peck, 
he's the office--head of the Office of Water in--with EPA, 
excuse me, that proposes this rule and we spent a lot of time 
talking to him and asking him for clarification on these 
things, in which he responded, no, that's not what we meant and 
be sure to put that in your comments so we can address it. And 
we specifically asked, those of us participating from Alaska, 
for a lot more information because he didn't understand. At 
that time, AMA in conjunction with RDC who represents all of 
Alaska's resource industries, as well as all of Alaska's Native 
corporations, sent him a letter inviting him to Alaska and 
offered to hold some sort of public meeting with a lot of 
stakeholders to bring him up to speed on how this would affect 
Alaska. We didn't hear back. And in August, we asked Senator 
Murkowski and then Senator Begich and Congressman Young and 
they did remind Gregory Peck of that invitation, still never 
heard back and did not get any engagement from him.
    So I bring that up because you asked the previous 
testifiers if it would have helped, and I think it would have 
helped EPA to consult with Alaskans and come see for themselves 
what they're proposing to do.
    You, in talking with Senator Bishop and Mayor Brower, 
touched on this, but EPA didn't consult with the State on this 
proposed rule, nor did they consider a consult with the Alaska 
Native landowners. The Native landowners were granted 44 
million acres of land that Congress intended to be a partial 
settlement of outstanding Native claims. The new definitions 
will undoubtedly have the direct result of significantly 
undermining the intent of Congress for these acres to be 
available for responsible resource development, including 
minerals, now owned in fee title by the corporations 
established by the Alaska Native Claims Settlement Act.
    Furthermore, the rule encroaches on traditional power of 
the States to regulate land and water within our borders. It's 
just as vital to ensure that States' rights are not being 
violated. It's statutorily mandated and affirmed by our legal 
system that regulation of Interior waters is a quintessential 
State function.
    Categorizing many new features as waters of the U.S. and 
determining that all adjacent features also qualify will 
consequently subject nearly every parcel of land to 
jurisdiction under the act. In Alaska, 175 million acres are 
classified as wetlands, thus 45 percent of our land base. We're 
the only State in the union with extensive permafrost and our 
coastline and tidally influenced waters exceed that of the rest 
of the Nation combined. Any regulation or rule addressing 
wetland and coastal environments will have a potentially 
greater effect in Alaska than anywhere else in the Nation, 
particularly if ill-conceived. The combination of these Alaska-
specific issues and those that all stakeholders must manage 
means Alaska's miners have an enormous burden at stake.
    AMA has recommended that the agencies table this proposed 
rule and engage in meaningful dialog with the regulated 
community and with the States about more appropriate and clear 
changes to existing regulations. Only then should agencies 
replace the proposed rule with one that reflects those 
consultations and is supported by science and case law. Doing 
so will ensure responsible, legally defensible rulemaking that 
captures the intent of Congress and the Supreme Court and does 
not place unnecessary burdens on Americans.
    Thank you, Senator Sullivan.
    [The prepared statement of Ms. Crockett follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Sullivan. Thank you, Ms. Crockett.
    Our final witness today before we have some Q and A is 
Shannon Carroll. He is an attorney and a commercial fisherman. 
Mr. Carroll.

STATEMENT OF SHANNON CARROLL, ATTORNEY AND COMMERCIAL FISHERMAN

    Mr. Carroll. Thank you. My name is Shannon Carroll. I'm a 
commercial fisherman and a solo practitioner attorney. I thank 
the committee for the opportunity to testify today.
    My comments and support for the proposed regulations are 
based on my experience working in the commercial fishing 
industries in Alaska, Washington, and Maine. And as someone who 
has fished elsewhere in the Country, I am proud to live and 
work in a State that takes the health of its fisheries so 
seriously. I also want to thank you, Senator Sullivan, for 
supporting our industry during your time in office thus far.
    In 1977, Congress re-examined the necessity of wetland 
protections within Section 404 of the Clean Water Act. Then, as 
now, commercial fisherman vocalized their support for the 
provision, coining the phrase ``no wetlands, no seafood.'' I 
mention this phrase now because in the case of Alaska, it 
cannot be more apropos. With over 43 percent of our State 
covered in wetlands, it is not surprising that 76 percent of 
our State's seafood harvest comes from wetland-dependent 
fisheries each year. In addition to the State's iconic salmon 
fisheries, wetlands are also critical to other keystone 
fisheries such as halibut, pollack, herring, and crab.
    I support the proposed rule because it clarifies 
protections to waters upon which these fisheries rely, all 
while reserving existing exemptions for farmers, ranchers, and 
foresters.
    In addition to promoting the health of our fisheries, the 
proposed rule further protects the brand of Alaskan seafood. As 
the Alaska Seafood Marketing Institute noted, the perception of 
Alaskan stewardship is an immeasurable but important component 
of both the seafood and visitor industries. Millions of people 
eat Alaskan seafood for the same reason that over 1 million 
visitors travel to the State each year, because they value 
Alaska's pristine environment. By categorically including 
wetlands, the proposed rule ensures that Alaska's seafood 
sterling reputation will continue into the future.
    My support of healthy fisheries is not entirely out of 
self-interest. Fishing means business and it means jobs in 
Alaska. As Alaska's third largest industry, recent figures 
place the combined value of Alaska seafood exports and domestic 
sales at $6.4 billion and when secondary economic output is 
included, the Alaska fishing industry accounts for $15.7 
billion in economic production. That's over 94,000 jobs that 
are directly tied to the commercial fishing industry and an 
estimated $6.4 billion in labor wages. And, importantly, most 
of these jobs stay in Alaska, with nearly one in eight Alaskan 
workers earning at least a portion of their income directly 
from the fishing industry.
    Fishing is also the backbone of Alaska's coastal 
communities employing 50 percent of private sector workers in 
coastal towns. And perhaps equally important in places like 
Kodiak, Petersburg, Dillingham, Cordova, commercial fishing is 
not just the engine that drives the local economy, it's a means 
of opportunity and a means of mobility. These are good jobs 
that can provide high school-age kids with the opportunity to 
pay for college, a down payment on a boat or a permit. These 
are jobs that bestow self-worth amongst those in the industry 
and further a tradition that one is proud to pass down to the 
next generation. Most importantly, however, these are jobs that 
are built on the back of a sustainable resource, meaning that 
these jobs can, with proper management and self-restraint, 
support local communities for generations to come.
    And there will, no doubt, be costs associated with the 
proposed rule, but it seems equitable that these costs at least 
be initially borne by those seeking to benefit from the 
proposed development. And just as before SWANCC and Rapanos, 
development and resource extraction will continue to occur and 
the economy will continue to grow. I will also add that having 
commercial fished in Washington and Maine, two States that 
previously held some of the world's largest salmon runs, that 
there are much greater costs associated with the restoration of 
a crippled fishery than there are with development fees and 
mitigation banks. To give you an example, Washington State has 
invested more than $1 billion in public funds to its hatchery 
program and continues to spend $60 million a year with little 
effect on its dwindling salmon fishery.
    So, in closing, I urge Senator Sullivan and the members of 
this committee to consider the wide-reaching and economic and 
cultural benefits that this proposed rule will have for the 
State. Thank you.
    [The prepared statement of Mr. Carroll follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
    Senator Sullivan. Thank you, Mr. Carroll, and thank you for 
reminding us of the importance of the fishery--fishing 
communities and industry to our State. You're spot-on with 
regard to those comments.
    We have about 20, 25 minutes until the hearing is supposed 
to adjourn and what I thought we would do is conduct some 
questions, follow up questions. And the way I like to do this 
is start with a question maybe of a certain witness, but I want 
to encourage everybody who wants to weigh in on any question to 
just be recognized. And certainly all of you can feel free to 
weigh in on any of the questions that are posed, even if 
they're initially posed for certain members of the panel.
    I guess I'll start. And, Ms. Taylor, you, as I mentioned 
were very eloquent in terms of some of the things that you laid 
out with regard to the views that some of our Lower 48 citizens 
have with regard to Alaska. But, importantly, and there's a lot 
of lawyers on the panel, so feel free to weigh in, it's 
important to remind people what the Clean Water Act tried to do 
with regard to States' abilities to keep their waters clean.
    So Section 101(b) of the Clean Water Act clearly states, 
``It is the policy of Congress to recognize, preserve, and 
protect the primary responsibilities and rights of the States 
to prevent, reduce, and eliminate pollution, to plan the 
development and use in restoration, preservation, and 
enhancement of land and water resources, and to consult with 
the EPA administrator in the exercise of his authority under 
this chapter.'' His or her authority.
    Do you think that the EPA is abiding by this directive of 
Congress under the Clean Water Act as making sure that the 
policy of the Congress is to protect, preserve, and recognize 
the primary responsibility of States and other entities to 
protect their waters? I'll start with you, Ms. Taylor, and then 
anyone else who wants to jump in on that issue. This is the 
law. This is the law.
    Ms. Taylor. No, absolutely not. Not legally or even kind of 
holistically. If you look at this rule, it presumes that where 
Federal jurisdiction ends, complete and utter lawlessness 
exists thereafter, which is incredibly disrespectful to the 
States' management obligations and traditional and primary 
powers, and authorities to manage and protect its waters. But 
even on a legal basis, if you look at other parts of the Clean 
Water Act, like the--it gives the States regulatory 
responsibilities, significant regulatory responsibilities, and 
it gives opportunities to assume primacy over certain 
permitting aspects for discharge, for dredge and fill. But the 
primacy aspect exists, you know, where it's not waters of the 
U.S. I'm generalizing, but where the Federal Government has 
jurisdiction, it kind of keeps it, and then the States kind of 
get a little primacy, you know, left--it's very complicated. 
Sorry. But the whole aspect of primacy would mean nothing if 
there's nothing left.
    So the Clean Water Act has created the system where States 
can assume primacy, but we would be paying millions of dollars 
to manage like a million acres. You know, so it wouldn't--it 
would read all of those provisions completely out of the law to 
assume that this regulation can go forward as written.
    Senator Sullivan. Any other comments on that initial 
primacy directive from Congress to the EPA with regard to the 
States' primacy--primary responsibilities on these issues? Sir.
    Mr. Wrigley. Yes. All the States have incentives to 
encourage and improve their water resources and water--and 
there are a lot of water success stories that are, in fact, 
featured on EPA's website. Those success stories came about 
without the heavy hand of EPA regulating and permitting. The 
success stories were due to voluntary conservation efforts 
under the existing definitions of the Clean Water Act. The 
presumption here is that without--and I agree with Sara. The 
presumption is that without this rule going forward, we are--in 
fact, do not have any Clean Water Act in place. And in reality, 
what we have is a Clean Water Act that is functioning and still 
allows the States to assert primacy, to control and to manage 
those waters within their jurisdiction.
    Senator Sullivan. Let me ask another question with regard 
to the hearing today, the first panel, this panel, and the 
hearing we held 2 days ago in Anchorage. Two themes come out, I 
believe, and I believe that even though there's differing 
opinions, obviously from the witnesses here on their support or 
lack thereof of this rule, that there was agreement in 
Anchorage on two key issues. One is that Alaska, under this 
rule, given our size, given the huge amount of wetlands, given 
the huge amount of clean water that we have is uniquely 
impacted by this rule.
    Is there general agreement among the witnesses on that 
issue? Say, we had a witness that mentioned some category, I 
think even a State park in our State, the Wood-Tikchik, which 
is larger than certainly Rhode Island and some other States. 
It's important for my fellow Senators in the Lower 48 to 
recognize this. But is there a general agreement among the 
witnesses here that we are uniquely impacted one way or the 
other with regard to this rule for all the reasons that have 
been discussed by the witnesses today? I see everybody's head 
nodding. Sue, is your head nodding?
    Ms. Mauger. I guess it's just a choice of words. We're 
impacted, but we're also protected.
    Senator Sullivan. OK. And then I do want to get into the 
issue of consultation. This process, I believe, has been 
flawed, has been very rushed. I have raised this with the EPA 
administrator. The issue of getting the Connectivity Report 
that the rule is based upon out after the rule is promulgated 
is beyond bizarre in terms of a process that's supposed to work 
well.
    Were any of your organizations or your members--do you 
think you had the proper consultation with the EPA? And, you 
know, Ms. Crockett, you mentioned how hard you worked to try to 
get an EPA administrator up here to try and understand Alaska. 
Do you think that the consultation that is required by the EPA 
and the whole host of Federal statutes and regulations was 
undertaken in a way that was sufficient, particularly to allow 
Alaskans to give their voice to what is going to be possibly a 
rule that can have enormous impact on our State?
    Ms. Crockett. Absolutely not.
    Senator Sullivan. Yes, Mr. Williams.
    Mr. Williams. Senator, if I may, TU has participated 
throughout the public processes through development of this 
proposed rule, and we had no special treatment beyond what any 
other member of the public had. But we found the EPA's 
procedures to be typical with what would be expected of a 
rulemaking process and felt that the opportunity to participate 
was adequate for our purposes and believe that the rule should 
go forward as currently proposed.
    Senator Sullivan. OK. Let me turn to the impact on small 
entities. I read the rule. I read the SBA's--Obama 
administration's SBA's concerns. President Wrigley, Ms. 
Crockett, Mr. McKinnon, a lot of your members represent not 
huge organizations, but placer miners, small farmers, small 
contractors. Could you describe what you think is the impact on 
particularly small businesses, small farmers that I think is so 
often overlooked as really the backbone of our economy here in 
Alaska and throughout the Country.
    Ms. Crockett. I'll go first. Thank you, Senator Sullivan. 
As you mentioned, I'm the representative on the panel here that 
represents placer miners and I can tell you that my very small 
placer mining operations that I represent, they're very scared. 
I do want to point out, at the end of 2014, AMA published a 
research survey we did with the McDowell Group here in Alaska 
to figure out what the economic impact of placer mining in the 
State of Alaska is. And we found out, and what we term it is, 
is that it's our seventh large mine in Alaska, meaning with all 
of the placer mines in Alaska, the job numbers, the economic 
procurement numbers, the revenues to local, State, and Federal 
Governments, is as much as one large operating mine, yet these 
are really small projects and very small parcels of acreage 
with real small amounts of employees.
    I bring this up because a proposal like the waters of the 
U.S. proposal, these guys have been operating on their land, 
many of them, for three or four decades and they understand it 
better than nobody else, and they understand their permits and 
they understand specifically what every piece of land on their 
property--what permits go about it and how to work it and how 
to manage it in responsibility to the environment. So when a 
change like this comes along and they have a water body that 
for--whether it's the intent of the EPA or not the intent of 
the EPA, because this rule is so confusing, may become 
jurisdictional. Now they're entering into the realm of what Mr. 
MacKinnon described to you as wetlands mitigation. So now they 
have a body of water that they could be required to pay, like 
Mr. MacKinnon said, it used to be $11,000 an acre, now it could 
be up to $55,000 an acre for a very small placer mining 
operation in which very often is one or two, almost always no 
more than ten employees. Fifty-five thousand dollars an acre 
for a small business like that will absolutely put them out of 
business.
    I don't think it's fair to say that we are claiming the sky 
is falling. The sky will fall for an operation like that if 
they have to start paying amounts on that, on a body of water 
on their property that they've been managing and treating and 
doing the right way for several decades.
    Senator Sullivan. Thank you. Mr. MacKinnon.
    Mr. MacKinnon. Senator Sullivan, I'll touch a little bit 
more on the mitigation aspect of it. You know, it goes by a 
number of different terms. Formally, it is mitigation and the 
fees can be quite onerous, relative to the size of the project. 
Mitigation dollars are intended to be spent to restore or 
enhanced damaged or impacted wetlands within the same region, 
preferably watershed of where the proposed wetlands would be 
impacted. And it's very difficult to do in Alaska because we 
have such vast undeveloped acreage. When you want to develop in 
one particular area, there may be nothing nearby to mitigate. 
We've got situations right now that I've been told about where 
projects that are desired to go forward, going through the 
permitting process cannot find mitigation projects in order to 
offset. So we've got stalled projects, according to the rule.
    This guidance--you know, we've got a difference of opinion. 
Some say it isn't an expansion and some say it is. I think, 
unfortunately, time will only tell as the expansion of the 
Clean Water Act has happened. You know, we're adding more 
acreage in there to potentially be mitigated and we're 
potentially shutting down a tremendous amount of development, 
of resource extraction, of jobs, of future. And I know Austin, 
to the left of me, wants his son to grow up here and enjoy the 
fish and game and I think everyone does want their children to 
grow up and have a good employment, fish and game, and the 
great outdoors, and no one wants to ruin that, but unless we 
have an economy to build upon, that's not going to happen.
    Senator Sullivan. And who makes the--you talked about the 
increase in the mitigation per acreage from--what did you say, 
$10,000 to about----
    Mr. MacKinnon. Ten thousand--again, it depends on the value 
of the wetlands.
    Senator Sullivan. Right.
    Mr. MacKinnon. There are high-value wetlands, lower-value 
wetlands, but there is a sum attached to each one of those. 
That comes from the Corps of Engineers through consultation.
    Senator Sullivan. And they just do that--I mean, I've seen 
the numbers grow. They're just making--they just have the 
discretion to say, heh, here it's 10,000, over here it's going 
to be 100,000. Good luck. I mean, is that what happens?
    Mr. MacKinnon. You know, they're the permitting agency. You 
don't have much opportunity or leg to stand on and argue 
against them. If they say the mitigation fee is $55,000 an 
acre, it's either pay up if you want to construct or go away.
    Senator Sullivan. Just from my perspective, I think that's 
something that needs a lot more congressional oversight because 
in my experience in Alaska, it seems completely random and 
prohibitive in terms of some of the value that they've put on 
some of these projects that essentially make them uneconomic.
    Mr. Wrigley, do you want to comment at all with regard to 
the cost to the small farmer? I know that the National Farm 
Bureau, in addition to the Alaska Farm Bureau, is very 
concerned about this rule.
    Mr. Wrigley. Yes, thank you. Yes, I think of my operation. 
I've got a--and for the other members of your committee that 
probably have never been outside a city, I have a field that's 
2 miles long, about a quarter-mile wide, so basically the size 
of the Washington Mall. So if you can picture that. Now, this 
field is not flat. It's got low undulating terrain that bisects 
that field on a diagonal. So every--you've got high spots and 
then you've got low spots, and then high spots and low spots.
    During the wintertime, it obviously gets cold here, the 
ground freezes, and then when summertime comes or springtime 
comes, then the snow melts and it runs to the low spots. So the 
top, the high ground is free of snow and thaws out while the 
bottom ground is covered with snow and then ice and water and 
until that frost goes out of the ground, that area is wet. Now, 
because the ground is not flat, then this water that has melted 
and accumulated in these low spots, drifts toward the 
downstream side.
    Two weeks later it's completely dry. I can farm it up and 
down, up and down, up and down. According to this rule, those 
low spots, and there's half a dozen of them in this field, I 
could not farm those low spots even though they're dry, I could 
not farm through those low spots unless I had a dredge and fill 
permit because, while we talk about the exemptions to 
agriculture that are within the Clean Water Act, in order to 
apply those exemptions, you have to have been farming that area 
continuously since 1977. Now, that area was cleared for 
agriculture in 1979 and 1980 and 1981, and so none of that area 
is even eligible for it. And the new ground that gets broken 
would also require a dredge and fill permit.
    So what is the cost of those permits? If you make a mistake 
and don't get the right permit, then it's $37,500 a day. A day. 
And so how can a small farmer or small business afford those 
kinds of things? There's no way. And so what you're going to 
have is large, large corporations who can afford to hire 
somebody and chase these permits and make sure that the 
reporting is done, because getting the permit is only part of 
the process; you still have to report on it. And so the 
permitting and chasing these permits and reporting on that can 
be done by somebody who can do this for a large corporation 
because he can afford to do that. And that's going to result 
in--98 percent of our farmers in America are still family 
farms. That's going to completely change the dynamics of those 
numbers.
    So I think that it's very clear that--again, I--and I state 
again, this rule has nothing to do with the Clean Water Act. 
The Clean Water Act is in place. We're not debating whether to 
drop it or throw it out or anything like that. We're just 
talking about Federal overreach because we're not just talking 
about the waters that EPA controls, we're talking about the 
land underneath those waters.
    And so my field becomes land underneath those waters. Even 
though there's no water on it, that comes under the 
jurisdiction of the EPA now, or Army Corps.
    Senator Sullivan. And we know that if that were the case, 
it would take some time just to be able to apply for and get 
the permits.
    Mr. Wrigley. Yes, and there is no schedule as far as how 
long they can take to get those permits. You apply for a 
permit. What if you had--suddenly had a grasshopper infestation 
and now you need to apply a pesticide to kill the grasshoppers 
before they destroy your crop? How long does that take to get 
that permit? Because over a wetland you would not only need 
dredge and fill permits to do normal farming activities, put a 
fence in, pull weeds, all of this stuff is required for dredge 
and fill permits, but now you need a discharge permit to be 
able to kill the grasshoppers. And how long is that going to 
take? Your crop is gone before you can get that permit process 
through.
    Senator Sullivan. Let me follow up on a--oh, go ahead, Mr. 
Carroll.
    Mr. Carroll. I just want to add since we're talking about 
small businesses that I think it's important for the record to 
note that every fishing vessel is quite literally a small 
business.
    Senator Sullivan. I couldn't agree more.
    Mr. Carroll. They're all LLCs. And, you know, mitigation 
serves a purpose and while I can't speak to the difficulty of 
obtaining mitigation land in this State, I will say that 
fishermen will suffer if wetlands are not covered under this 
protection, and they will go out of business. I've seen it 
other States where I've lived. Those coastal communities shut 
down and people from out of State move in and those coastal 
communities change a lot in character.
    So these are small businesses that are adversely affected 
by, you know, an effort to repeal this proposed rule.
    Senator Sullivan. Well, trust me, there is an EPA reg right 
now that I'm trying to get excepted permanently. You're 
probably quite aware of it--we're making some good progress--
that is directly impacting small businesses in the form of our 
fishermen, which is the discharge permit required for decks. 
Literally, hosing off the fish guts off your vessel after 
you're fishing.
    Mr. Carroll. Right.
    Senator Sullivan. Lunacy, in my view, that's killing our 
small fishermen.
    Mr. Carroll. Yes, and I----
    Senator Sullivan. And, by the way, we're making very good 
progress on getting rid of that one hopefully forever. So I 
certainly--you make a very good point. Our fishermen and women 
are classic--the definition of small businesses. They take 
risks, they create a great product, which is Alaska seafood, 
and they often pass on their businesses to their kids and 
grandkids. In my experience, they're impacted by EPA 
regulations in a negative way almost more than anybody, even 
our miners. So I certainly recognize that. It's a good point.
    Let me just ask an issue that's related that I--it's 
actually one of the critical issues. We have a lot of lawyers 
on the panel. There's a big debate here. Is this an expansion 
of the EPA's jurisdiction under the Clean Water Act or not? If 
it is, if it's a major expansion, it is clear, it is clear, 
it's abundantly clear that the power to dramatically expand the 
jurisdiction of the Clean Water Act does not reside with the 
EPA. It resides with the Congress of the United States.
    I was, as Alaska's attorney general, part of a lawsuit that 
went to the Supreme Court last year. It was a similar case in 
many ways. It was the EPA's rulemaking under the Clean Air Act, 
and they had promulgated a rule that would have negatively 
impacted the State of Alaska dramatically under the Clean Air 
Act and the Supreme Court reprimanded the EPA and essentially 
said, if you don't have--if you're expanding the jurisdiction 
of the Clean Air Act, you have to go to Congress to get 
permission to do that. You can't do that through a rulemaking. 
And they had some very strong language with regard to the EPA's 
overreach, saying it's a violation of the separation of powers.
    So let me get to that issue. It's the critical issue. Right 
now the EPA is saying, no, no, no, this is not an expansion; 
this is a limitation, this is a clarification. And yet I think 
some of the testimony here believes that this is a massive 
expansion of the jurisdiction of the Clean Water Act.
    Mr. Wrigley, your testimony just now in terms of what it 
would do to a family farm in Alaska certainly is powerful 
evidence that this is an expansion. Would anyone like to 
comment one way or the other? If it is an expansion, they have 
to go to Congress to get that permission, period. Which is why 
I think the administrator of the EPA is kind of playing a 
little bit footloose and fancy free with her depiction of what 
this rule would do by saying, no, it's a clarification, it's a 
limitation on us. I personally don't believe that, but I'd like 
any of the witnesses to opine either with regard to whether 
they see this as an expansion or--that's the critical issue 
that we're looking at. Mr. Williams. Oh, I'm sorry, Ms. Taylor, 
go ahead.
    Ms. Taylor. I'm going to say that it's such an expansion if 
you look at what would be jurisdictional under the rule that I 
don't even think Congress could authorize the extent of that 
jurisdiction if they asked.
    Senator Sullivan. Meaning it would violate the 
Constitution?
    Ms. Taylor. That's correct. Yes.
    Senator Sullivan. So you think it's not only within the 
realm of the EPA's because they're a--remember, they're a 
Federal agency that has to get its authority from Congress. You 
think it would be beyond the power of Congress even to expand 
it this far? What would--that would violate----
    Ms. Taylor. That would violate the commerce clause of the 
U.S. Constitution. It would be too attenuated from a connection 
to interstate commerce because you'd be regulating very solely 
intrastate things that are under the sovereign power of the 
States.
    Senator Sullivan. Thank you. Anyone else? Mr. Wrigley. Mr. 
Williams.
    Mr. Williams. Yes, Mr. Chairman. I do not believe that the 
proposed rule is an expansion of jurisdictional reach of the 
Clean Water Act. In fact, as the Congressional Research Service 
report on the proposed rule shows, the proposed rule would 
bring into its scope 3 percent more area than the 2008 
guidance. But as compared to the reach of the Clean Water Act 
prior to the Supreme Court cases in 2001 and 2006, the proposed 
rule would affect 5 percent less wetlands than were originally 
under jurisdiction of the Clean Water Act.
    And I think it's important to also look at some of the 
Congressional Record that we have relating to when the Clean 
Water Act was initially passed and when the amendments of 1977 
were considered. In particular--and I highlighted and 
referenced these in my written testimony, but if I may I'd like 
to read a short quote from Republican Senator Baker from the 
1977 deliberations. ``A fundamental element of the water act is 
broad jurisdiction over water for pollution control purposes. 
It is important to understand that toxic substances threaten 
the aquatic environment when discharged into small streams or 
into major waterways. Similarly, pollutants are available to 
degrade water and attendant biota when discharged into marshes 
and swamps, both below and above the mean and ordinary high 
water marks. The once seemingly separable types of aquatic 
systems are, we now know, interrelated and interdependent. We 
cannot expect to preserve the remaining qualities of our water 
resources without providing appropriate protection for the 
entire resource.''
    And I think it's also, when we're looking at this, 
important to remember that in the Rapanos decision, Justice 
Kennedy was very careful to describe the significant nexus 
requirement that bounds the EPA's and the Corps' jurisdictional 
reach on Clean Water Act issues, and to recognize that under 
the 2008 guidance, on a case by case basis, the Corps and the 
EPA applied the significant nexus test. What's new about the 
proposed rule is that there is clarity to the significant nexus 
test.
    We no longer will have to go through the case by case 
determination for waters that have always been under Clean 
Water Act jurisdiction and now we only will have to mess with 
the complication of a case by case jurisdictional determination 
for those waters--the other waters category.
    And so this is not an expansion of jurisdiction and, in 
fact, it's compared to application of the Clean Water Act prior 
to SWANCC and Rapanos; it's restricted by 5 percent.
    Senator Sullivan. OK. I appreciate that. I just think for 
the record, the Rapanos/Kennedy opinion was a concurring 
opinion, so there's not a five justice majority on that test. 
And also for the record, the Congressional Research Service 
report that you cite states, ``Changes proposed in the proposed 
rule would increase the assertive geographic scope of Clean 
Water Act jurisdiction, in part, as a result of the agencies 
expressly declaring some types of waters categorically 
jurisdictional and also by application of new definitions which 
give larger regulatory context to some types of waters such as 
tributaries.''
    So in my view and, more importantly, in the view of the 
Congressional Research Service, the rule does expand 
jurisdiction. And with regard to the EPA, I think you give them 
an inch, they're going to take a mile. And that's my concern. 
Mr. Wrigley, do you have a----
    Mr. Wrigley. Yes, just a couple of comments with respect to 
clarity. Certainly, the rule provides clarity. If you make 
everything that rain touches or water touches a wetland, then 
there is clarity there. So from that standpoint, the rule does 
provide clarity. Is it an expansion? I don't think that there 
can be any dissent really, I mean, in all honesty, that it does 
expand that. I look at my farm, my field, if I have to leave 
those low spots or get a permit for them because they're under 
Clean Water Act jurisdiction now, where up until now they had 
not been, that's an expansion of that authority. I'm not 
required to do it right now.
    And as far as the significant nexus requirement, the courts 
held that a significant nexus was required and EPA's 
interpretation of that was that essentially all waters are 
connected, therefore there is a significant nexus that exists. 
In my field when that water goes downstream until it's stopped 
by a road, which is in existence, and then the frost goes out 
and the water melts away, that's a significant nexus; it 
actually picks up underground at that point. But that would 
require me to have that permit.
    So I don't think that there's any way that you can really 
state that it's not an expansion because that area is not under 
Clean Water Act jurisdiction right now--not under EPA 
jurisdiction right now. And we have talked a number of times 
about that the current amount of land under jurisdiction at 
this time is less than before SWANCC. The fact of the matter is 
that those Supreme Court decisions were in--were found to be 
there because they were already overstepping their bounds. 
That's why they were restricted. That's why they pulled back.
    So we can't go back to pre-1977 and say, well, this is what 
the traditional interpretation was, because that was clarified 
by the court and now we are looking at not just the 3 percent 
increase--that's what EPA is saying, that we're going to 
increase that amount by 3 percent. In reality, we're talking 
about millions and millions and millions of acres across the 
Country.
    Senator Sullivan. Well, even 3 percent in Alaska is huge.
    Let me turn to another final couple of questions. I do want 
to--you know, Mr. Carroll, Mr. Williams, Ms. Mauger, you guys 
importantly, and I think it is important testimony, you raise 
the--you emphasize the importance of our fisheries and I think 
everybody in the room can agree on the importance of Alaska's 
fisheries. You know, you mentioned they're actually--the 
numbers I have seen, they're actually the No. 1 employer in 
State of Alaska, more than oil and gas. So incredibly important 
for all of us, for our heritage, for recreation, for 
livelihood.
    But I want to ask you, can we make sure that we protect our 
fisheries without the Federal Government being involved in such 
a heavy-handed way? You know, the State actually has a--we're 
not perfect, certainly, but we have a pretty good record 
certainly relative to some of the States that you mentioned, 
Maine, Massachusetts, the sustainable fisheries at the Federal 
and the State level. Is this the kind of Federal intervention 
that we need to make sure our fisheries stay healthy or can we 
do this with regard to our own interests? In my view, we're 
better at this than anyone in Washington, DC, and you guys are 
very involved in this important part of our livelihood and life 
in Alaska.
    Ms. Mauger. Thank you for the question. With our current 
State government budget, I think the answer has to be no; that 
Alaska cannot protect its waterways sufficiently and that just 
as the Federal Government pays for the vast majority of our 
infrastructure and things that make living here possible, I 
think we need the benefit of being part of the larger Country 
and taking advantage of those resources. And I think personally 
that that is what the EPA is bringing to us, is bringing----
    Senator Sullivan. But remember the Federal Government is 
not paying for this. We're going to pay for this, this 
regulation. I don't see the EPA doing anything in terms of 
additional expenditures. They're just going to promulgate a reg 
that we pay for. So, I don't see the connection to Federal 
spending in the rule.
    Ms. Mauger. Presently, the vast majority of efforts to 
monitor and research our water bodies in the State is from 
Clean Water Act money that is passed through to the States. The 
Alaska Clean Water Action program is one of the few pots of 
money available for monitoring of water quality issues. And in 
many cases, there are infractions or lack of permits and 
discharges that can only be identified through the efforts of 
monitoring and the Federal Government is paying for that kind 
of oversight on what is actually getting into our water bodies 
through the Nonpoint Source Program.
    And so I do think that the Federal Government is an 
important player in ensuring that those permits are being 
properly instituted and that there are plenty of examples where 
discharges are happening and they're only being identified by 
people monitoring. So I do think the Federal Government is 
playing an important piece in keeping the waters clean.
    Senator Sullivan. OK. Mr. Williams.
    Mr. Williams. I think some of the points that Ms. Mauger 
raised, especially regarding the difficulty--the difficult 
financial status of our State budget at the moment, really need 
to be given our consideration here. One of the initiatives that 
Trout Unlimited has throughout many parts of the Country, but 
that is particularly relevant in Alaska, is many of our members 
will go out and document the presence and absence of anadromous 
fishes and nominate waters to the State's anadromous waters 
catalog for--you know, that would then potentially benefit from 
our anadromous fish protection laws.
    Most recently we submitted a handful of nominations as we 
do most years and these are nominations that include scientific 
documentation of the presence and absence of anadromous fishes, 
typically coho salmon, high in the watershed for spawning, 
rearing, or migration that have, in the past, been readily 
accepted as viable nominations. This past year, the Alaska Fish 
and Game denied our nominations on the grounds that they did 
not have the funds to process our nomination requests. These 
are waters that are not currently in the Anadromous Waters 
Catalog, but that nonetheless have coho salmon spawning, 
rearing, or migrating through. These are small headwater areas, 
areas that don't necessarily even flow continuously year-round, 
but nonetheless have coho juvenile salmon in them.
    Senator Sullivan. That are not currently covered by the 
Clean Water Act?
    Mr. Williams. These are areas that are not currently 
protected by our State's anadromous waters laws. If we did not 
have protections like those afforded by the Clean Water Act and 
we were relying exclusively on State protections, these are 
areas that would not be protected under State law, but that 
nonetheless contribute significantly to the production of 
salmon that support, as you, yourself, indicated, the largest 
employer in our State.
    So if we want to repeal Clean Water Act protection----
    Senator Sullivan. Nobody is talking about doing that, so 
that's not----
    Mr. Williams. If----
    Senator Sullivan. Let's not go there.
    Mr. Williams. If we----
    Senator Sullivan. That's an area that's a red herring. 
Nobody is talking about that.
    Mr. Williams. If we are talking about the value or the 
potential for the State to provide the same clean water 
protective services that the EPA, under the Clean Water Act, or 
the Corps under the Clean Water Act do, I think there's a real 
problem from a financial standpoint with our State being able 
to fund those programs in a way that meaningfully protects our 
fisheries.
    Senator Sullivan. I just worry that the way this is being 
discussed, it's going to make farmers like, you know, Mr. 
Wrigley, be the one holding the financial costs, because it 
isn't--Mr. MacKinnon?
    Mr. MacKinnon. Along the same lines, you know, I remember 
statehood, I remember before statehood. I'm probably one of the 
oldest ones up on this panel. You know, fisheries under Federal 
protection and Federal management were on a downhill trajectory 
and it didn't improve until the State took management over and 
that was in the late sixties. A number of programs the State 
put in place are the result--resulted in the vibrant fisheries 
we have today, and at the same time development occurred in 
Alaska, absent the Clean Water Act. And fisheries and 
development can co-exist, they do co-exist, and the 
development, you know, is one of those things that allows the 
fisheries to be here because without that development we 
wouldn't have shoreside facilities, roads to get to the boat 
launch facilities and everything else. They have to co-exist 
and they do co-exist.
    Senator Sullivan. Listen, I want to end with one final--
you've been very patient. I appreciate it. We've run over our 
time.
    Ms. Taylor, your opening statement I thought was very 
powerful in terms of this idea that--and I'll let you 
articulate it because you'll do so way better than I would. But 
in some people minds, whether it's senators from the East Coast 
or outside environmental groups, that Alaska is some kind of 
snow globe, you know, some kind of dream destination that they 
can feel great about particularly given that some of these 
States with some of their policies over the years certainly 
have not done a good job of keeping their water as clean as 
ours or their air as clean as ours, or their environment as 
pristine as ours. So once they've kind of ruined--well, I 
shouldn't go that far, but they look at us as saying we have to 
preserve Alaska and nothing can happen. The 10-02 area of ANWR, 
several of my colleagues on the other side of the aisle have 
written the Secretary of Interior saying, keep it up, lock it 
up. That makes them feel good. My view is it hurts us. It hurts 
our future. It hurts my kids' future. It hurts your kids' 
future.
    And can you comment about that, because it is something 
that I see, but you stated it so well and I think it's very 
important for our fellow Alaskans to hear about that. And I'd 
just like to conclude the hearing on kind of what you started 
with in regard to those issues. We all certainly want the 
cleanest water, the cleanest environment. We live here. We care 
more about it than the EPA administrator does, I guarantee you. 
But there is this notion to keep us down so they can feel good.
    Ms. Taylor. Yes, you put it very well. There is a sense 
that, you know, it always comes from people who don't really 
understand how we are able to both thrive, survive; that 
there's a balancing act that we have to do as Alaskans because 
Alaska, it's not a place where we can just massively grow our 
own food, it's not a place where--we can hunt and we can fish, 
but so long as somebody lets us. You know, there is--I was 
talking to--actually, Mayor Brower put it really well, too. I 
was talking to a group of people last weekend and I said, you 
know, if everybody outside wants us to go back to living in sod 
houses and heat it with whale oil and trying to kill our own 
food and feed our families, we couldn't do it because there's 
not a single way that any of that could happen anymore because 
of Federal permitting. We couldn't mine the sod, we couldn't 
actually kill the whales, we couldn't go and, you know, kill 
enough to feed a family to do it. So we're really kind of stuck 
in a situation where, and this is how I usually refer to it, 
we're kind of being idealized into powerlessness.
    People have this ideation and they want to preserve Alaska, 
that they fail to recognize the fact that people live here and 
that we live in these communities. And the Alaska National 
Interest Lands Conservation Act was a really great opportunity 
where everybody got to kind of take a minute and realize this 
is what--this how we'll divide up Alaskans, but we will protect 
their lifestyle. And you don't see that anymore. You don't see 
that anymore at all.
    Senator Sullivan. Well, listen, I want to thank all of you. 
This is a very informative panel. I want to thank those of you 
who attended the hearing today. Please, if you'd like to submit 
comments to the committee, we will keep the record open for the 
next 10 days to receive any other comments in addition to the 
comments from our two panels. And I really appreciate your 
interest in this important issue, and we look forward to 
hearing more as we move forward on this matter.
    Thank you very much. The hearing is hereby adjourned.
    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                         [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
